CERTIFICATE OF SERVICE
NO. TBD
Beckwith et al.
Petitioner(s)
v.
City of Houston et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
BECKWITH ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Collyn Ann Peddie
City of Houston Legal Department
900 Bagby Street, 4th Floor
Houston, TX 77002
(832) 393-6463
collyn.peddie@houstontx.gov
Counsel for City of Houston et al.

Lucas DeDeus

January 14, 2020
SCP Tracking: Kallinen-511 Broadway Street-Cover White

